No. 19-1324
2S

IN THE

Supreme Court of the Anited States

 

CENTER FOR IMMIGRATION STUDIES,

Petitioner,
Vv.

RICHARD COHEN AND HEIDI BEIRICH,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the
District of Columbia Circuit

BRIEF IN OPPOSITION

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
5,118 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on June 30, 2020.

 

Wilson-Epes Printing Co., Inc.
